Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

958 F.3d 1035
United States Court of Appeals, Eleventh Circuit.

[2]

5 Cases that cite this headnote
[3]

Habeas Corpus
Federal Review of State
or Territorial Cases
A state court's determination that a state
prisoner's federal claim lacks merit precludes
federal habeas relief so long as fairminded jurists
could disagree on the correctness of the state

Synopsis
Background: After affirmance,
770 So.2d 663, of
state prisoner's murder conviction and death sentence, and
affirmance of denial of state postconviction relief, 211 So.3d
1, prisoner petitioned for federal habeas relief, alleging that
trial counsel was ineffective in investigating and presenting
mitigation evidence for penalty phase. The United States
District Court for the Southern District of Florida, No.
9:17-cv-81159-WPD, William P. Dimitrouleas, J., denied the
petition. Prisoner appealed.

Prejudice in general

To establish prejudice, as element of ineffective
assistance of counsel, defendant must show that
there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the
proceedings would have been different. U.S.
Const. Amend. 6.

Ronald KNIGHT, Petitioner - Appellant,
v.
FLORIDA DEPARTMENT OF
CORRECTIONS, Attorney General, State
of Florida, Respondents - Appellees.
No. 18-12488
|
(May 1, 2020)

Criminal Law

court's decision.

[4]

28 U.S.C.A. § 2254(d).

Habeas Corpus
Adequacy and
Effectiveness of Counsel
The question, on deferential federal habeas
review of a state prisoner's claim of
ineffective assistance of counsel, is whether
there is any reasonable argument that counsel

[Holding:] The Court of Appeals, Newsom, Circuit Judge,
held that prisoner was not prejudiced by counsel's allegedly
deficient performance.

satisfied
Strickland’s deferential standard for
reviewing the performance of counsel. U.S.
Const. Amend. 6;

Affirmed.

5 Cases that cite this headnote

Procedural Posture(s): Appellate Review; Post-Conviction
Review.
West Headnotes (8)
[1]

28 U.S.C.A. § 2254(d).

Criminal Law
general

Deficient representation in

To establish deficient performance, as element
of ineffective assistance of counsel, defendant
must show his counsel's representation fell below
an objective standard of reasonableness. U.S.
Const. Amend. 6.

[5]

Habeas Corpus
Adequacy or effectiveness
of state proceeding; full and fair litigation
Federal habeas review of state prisoner's claim,
that counsel was ineffective in investigating and
presenting mitigation evidence for penalty phase
of capital murder trial, was not circumscribed
by a state court conclusion with respect to
the prejudice element for ineffective assistance
of counsel, and prejudice therefore would be
reviewed de novo, where the state court had
rejected the ineffective assistance claim on
the basis that counsel's performance had not
been deficient, without reaching the prejudice

5 Cases that cite this headnote

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

element. U.S. Const. Amend. 6;
§ 2254(d).

28 U.S.C.A.

1 Cases that cite this headnote
[6]

Criminal Law
Adequacy of investigation
of mitigating circumstances
Criminal Law
sentencing phase

Presentation of evidence in

In evaluating prejudice, as element of ineffective
assistance of counsel, with respect to counsel's
allegedly deficient performance in investigating
and presenting mitigation evidence for penalty
phase of capital murder trial, the court's task was
to review the new mitigation evidence and then
reweigh the evidence in aggravation against the
totality of available mitigating evidence. U.S.
Const. Amend. 6.

[7]

*1036 Linda McDermott, Federal Public Defender's Office,
Tallahassee, FL, for Petitioner - Appellant.
Ronald Knight, Pro Se.
Leslie Teresa Campbell, Lisa-Marie Lerner, Attorney
General's Office, West Palm Beach, FL, for Respondents Appellees.
Appeal from the United States District Court for the Southern
District of Florida D.C. Docket No. 9:17-cv-81159-WPD
Before MARTIN, JORDAN, and NEWSOM, Circuit Judges.
Opinion
NEWSOM, Circuit Judge:
Death-sentenced Florida inmate Ronald Knight asks this
Court to reverse the district court's denial of his habeas

Criminal Law
Adequacy of investigation
of mitigating circumstances

corpus petition, which he filed pursuant to
28 U.S.C.
§ 2254. He alleges that his counsel, Jose Sosa, rendered

Criminal Law
sentencing phase

ineffective assistance under Strickland v. Washington, 466
U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), by failing
to adequately investigate and present mitigating evidence
during the sentencing phase of his capital-murder trial.
On state postconviction review, the Florida Supreme Court
rejected Knight's claim, concluding that Sosa's performance
was not constitutionally deficient. See Knight v. State,
211 So. 3d 1, 9–10 (Fla. 2016). Knight thereafter filed a

Presentation of evidence in

Assuming that counsel performed deficiently,
as element of ineffective assistance of counsel,
in investigating and presenting mitigation
evidence for penalty phase of capital murder
trial, defendant was not prejudiced, where
new mitigation evidence merely confirmed the
mitigation evidence originally presented and did
not support any new mitigating factors, the
aggravating factors found by sentencing court
remained unchallenged and unaltered, and the
overall balance remained essentially unchanged.
U.S. Const. Amend. 6.

[8]

Attorneys and Law Firms

Habeas Corpus
Issues and findings of
fact; historical facts; credibility
A federal habeas court must defer to a state
postconviction court's credibility determinations,
even on de novo review of a state prisoner's
federal claims.

28 U.S.C.A. § 2254.

federal habeas petition under
§ 2254, arguing—among
other things—that the Florida Supreme Court's rejection of
his ineffective-assistance-of-counsel claim was contrary to
clearly established federal law, constituted an unreasonable
application of that law, and was based on an unreasonable
determination of the facts. The district court denied his
petition, and we granted a certificate of appealability on the
ineffective-assistance claim.
After careful consideration, we affirm the district court's
denial of Knight's petition. Even assuming that Sosa
performed deficiently in failing to investigate and *1037
present the mitigation evidence that Knight now raises—
thus satisfying the first prong of the two-part
Strickland
standard that governs ineffective-assistance claims—we hold
that Knight has failed to carry his burden of demonstrating
resulting prejudice.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

Because

the

Florida

Supreme

Court

didn't

reach

Strickland’s prejudice prong, we consider it here de novo.
In doing so, we must reweigh the aggravating evidence
found by the judge who sentenced Knight against the
totality of the mitigating evidence—including both the
evidence originally presented at sentencing and the evidence
that Knight now claims his counsel failed to present.
While Knight's new evidence may strengthen some of the
mitigating circumstances presented at trial, it does not reveal
any fundamentally new information or support any new
mitigating factors. Against this, the aggravating factors found
by the sentencing court remain unchallenged and unaltered.
We therefore cannot conclude that there is “a reasonable
probability that ... the sentencing judge ... would have struck
a different balance”—in favor of life, rather than death—
had it been able to consider the new evidence.
Porter v.
McCollum, 558 U.S. 30, 42, 130 S.Ct. 447, 175 L.Ed.2d 398
(2009) (quotation omitted). Accordingly, we find ourselves
constrained to affirm the district court's denial of Knight's
§ 2254 petition.

I
The grisly facts of Ronald Knight's execution-style murder
of Richard Kunkel are not in dispute. On direct appeal, the
Florida Supreme Court summarized them as follows:
Knight and two accomplices, Timothy [Pearson] and Dain
[Brennalt] agreed that they would go to a gay bar, lure a
man away from the bar, and beat and rob him. The three
found Richard [Kunkel] and invited him to go to a party....
After stopping to eat, the three convinced Kunkel to leave
his car parked there and ride to the party with them. Knight
then drove to a secluded area where they stopped twice and
got out of the car to urinate.
Before they got back into the car after their second stop,
Knight pointed a gun at Kunkel and told him to turn around
and take off his jeans. As Kunkel was complying, Knight
fired one shot striking Kunkel in the back. Kunkel fell
to the ground and began crying for help.... Knight and
[Pearson] then dragged Kunkel's body out of the road.
They left Kunkel to die beside a canal where his body was
later discovered. Knight threatened to kill [Pearson] and
[Brennalt] if they told anyone about the murder.

Later that night, the three men went back to ... Kunkel's
car. Knight then stole Kunkel's car and took it for a joy ride
to see how fast it would go. Some time later that evening,
the three men broke into Kunkel's house and stole various
items.
Knight v. State, 770 So. 2d 663, 664 (Fla. 2000). Four years
passed before Knight was indicted for Kunkel's murder. In
the meantime, Knight killed Brendan Meehan under similar
circumstances—a crime for which he received a life sentence.
Knight, 211 So. 3d at 6.
Knight was eventually charged with the first-degree murder
of Kunkel, as well as armed robbery, burglary of a dwelling,
and grand theft. He waived his right to a jury trial and
discharged both attorneys appointed to represent him at the
guilt phase, Ann Perry and Jose Sosa, choosing instead to
represent himself with Sosa acting as standby counsel. Knight
was found guilty on all charges.

Knight, 770 So. 2d at 664.

*1038 At some point during the guilt phase of the trial,
Knight agreed that Sosa would represent him during any
penalty-phase proceeding. Accordingly, after finding Knight
guilty, the court reappointed Sosa as counsel for sentencing,
with respect to which Knight once again waived his right to
a jury. The trial court ultimately sentenced Knight to death.
Id. Sosa's conduct during the penalty phase is the issue now
before this Court—in particular, whether he was ineffective
for failing to adequately investigate and present additional
mitigating evidence. See
Porter, 558 U.S. at 39, 130 S.Ct.
447 (“[C]ounsel had an obligation to conduct a thorough
investigation of the defendant's background.” (quotation
omitted)).
[1]

[2] Ineffective-assistance-of-counsel

governed by the familiar two-part

claims

are

Strickland standard:

[Petitioner] must show that his counsel's deficient
performance prejudiced him. To establish deficiency,
[petitioner] must show his “counsel's representation fell
below an objective standard of reasonableness.” To
establish prejudice, he “must show that there is a reasonable
probability that, but for counsel's unprofessional errors, the
result of the proceedings would have been different.”
Id. at 38–39, 130 S.Ct. 447 (quoting
Strickland, 466
U.S. at 688, 694, 104 S.Ct. 2052). In support of his claim,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

Knight asserts that the mitigating evidence that Sosa offered at
sentencing—which included testimony from, among others,
Knight's mother, his sister, and two expert witnesses who
testified about Knight's mental health—paled in comparison
to the evidence that Knight, represented by new counsel,
eventually adduced at a state-postconviction evidentiary
hearing in 2012. There, in addition to Knight's sister and
one of his mental-health experts, Knight's lawyer presented
testimony from Knight's coconspirators Dain Brennalt and
Timothy Pearson, two new expert witnesses, and a counselor
from a reform school that Knight attended as a teenager, and
also proffered an unverified affidavit from another student
who had attended the same school.

II
As in every death-penalty matter, we must undertake a
careful review of the procedural history of Knight's case—
complete with summaries of the various hearings and the
evidence presented there. Here in particular, where Knight
contends that his trial counsel failed to adequately investigate
and present sufficient mitigating evidence, our consideration
necessarily involves a comparison of the evidence introduced
during the sentencing phase of Knight's trial with the proof
later adduced on postconviction review. Accordingly, we
will first canvass the evidence presented at sentencing and
the trial court's sentencing order. Then, following a brief
review of Knight's direct appeal, we will examine the state
postconviction proceedings—including, most importantly,
the evidentiary hearing principally at issue here, as well as the
Florida Supreme Court's decision affirming the rejection of
Knight's ineffective-assistance-of-counsel claim.

A
At the penalty phase of his trial, Sosa called Knight's mother
and sister, as well as two expert witnesses who had also
worked on the earlier Meehan trial—mental-health counselor
Susan Lafehr-Hession and psychiatrist Dr. Abbey Strauss.
Knight's mother, Karen Gerheiser, and his sister, Theresa
Scott Fowler, testified about Knight's family background and
upbringing, detailing his troubled childhood and early drug
use, as well as academic and disciplinary struggles. Gerheiser
testified about her divorce from Knight's father—in *1039
particular, how he took Knight's older brother Michael, but
left Knight with her, and how Knight struggled with this

rejection and separation from his father and brother. Gerheiser
explained how many of Knight's early problems seemed to
begin at that time—falling grades and increasing truancy,
minor delinquency, and drug use.
According to Gerheiser, Knight's home life further
deteriorated following the divorce. Knight, she said, faced
a revolving door of stepfathers and boyfriends and often
left his mother's home in favor of other accommodations—
living with girlfriends, camping in the woods, and eventually
staying with his older brother. She explained that in his midteens, Knight enrolled in a drug-treatment program and later a
school for troubled boys, the Eckerd Youth Center. Gerheiser
testified that Knight was injured while at Eckerd, resulting in
hospitalization and surgery to amputate a testicle.
Gerheiser and Fowler also said, though, that Knight always
had adequate clothing and shelter, including an apartment that
Gerheiser gave him at age 18. They explained that Gerheiser
did the best she could as a single mother, that they supported
Knight and encouraged him to go to school, and that Fowler
did everything she could to help Knight. Fowler testified that
although there was some parental neglect, Knight was not
abused.
The sentencing court also heard from two expert mentalhealth witnesses, both of whom had initially interviewed
Knight in connection with the Meehan trial. Susan LafehrHession explained that in 1998 she was a mental-health
counselor working toward her Ph.D. She said that in
preparation for the Meehan trial, she met with Knight and
administered several diagnostic tests to gauge his mental
capacity—including the Multiphasic Personal Inventory and
Rorschach tests, the Stanford-Binet Intelligence Scale IQ test,
a word-association test, the House-Tree-Person drawing test,
and the Bender-Gestalt Motor Test. She further explained that
before testifying in the Kunkel proceedings, she spoke with
Knight again, reviewed his personal and social history, and
listened to his mother's testimony.
Lafehr-Hession diagnosed Knight with “a paranoid disorder
or paranoia,” which, she explained, “is a very pervasive
all-inclusive mental illness, very severe, very debilitating,
does not change, does not get better except when the person
is in a highly structured setting.” She agreed with Sosa's
characterization of Knight as “a very disturbed paranoid
person” with a “very severe and debilitating type of an
illness”—“[s]evere emotional disturbances ... very distrusting
and suspicious kind of a person, emotionally unstable and

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

aggressive, hostile.” And she postulated that the focus of
Knight's paranoia stemmed from “whatever happened at [the
Eckerd Youth Center] that ended up in having his testicle
amputated.” She explained that a paranoid person like Knight
harbors “a persistent bearing of grudges that grow and
continue like a snowball rolling down a hill.”
Sosa specifically asked Lafehr-Hession whether any of
Florida's statutory mitigating factors applied to Knight. See
Fla. Stat. Ann. § 921.141(6) (1996). Lafehr-Hession
agreed that Knight suffered from both extreme mental or
emotional illness or disturbance and a diminished capacity
to appreciate the criminality of his conduct or conform his
conduct to the law. As to the former, she testified that Knight
is “always under the influence of extreme emotional distress
and disturbance, that's the very nature of the disturbance, and
it's ever present and it's always there.” And as to the latter,
she stated that Knight was *1040 not “able to make choices,
willful choices outside of that mental illness.” On crossexamination, though, Lafehr-Hession also acknowledged the
existence of statutory aggravating factors. See
Fla. Stat.
Ann. § 921.141(5) (1996). She agreed that Knight had the
capacity to carefully plan a crime, knew right from wrong,
and had the ability to conceal misdeeds.
Next up was psychiatrist Dr. Abbey Strauss, who, like LafehrHession, first evaluated Knight in preparation for the Meehan
trial. During his Kunkel-trial testimony, Strauss discussed his
preparation for both trials, his evaluations of Knight, and his
diagnosis.
Strauss explained that prior to testifying in the Meehan trial,
he conducted a background investigation, reviewed medical
records from jail and the Eckerd Youth Center, read a private
investigator's report, and met with Knight twice. He further
explained that before testifying in the Kunkel trial, he met
with Knight twice more and read a background report that
included Lafehr-Hession's Kunkel-trial testimony. He did not,
however, speak to Knight's parents, siblings, neighbors, or
associates.
At Knight's sentencing hearing for the Kunkel murder—
at issue here—Strauss echoed Lafehr-Hession's diagnoses,
noting a strong suspicion of a paranoia disorder. He added
that Knight was an “extremely volatile, emotionally intense
young man ... who has no easy control of the emotions that
he has.” Like Lafehr-Hession, he also testified to applicable
statutory mitigating factors, agreeing that Knight was under

extreme mental or emotional distress at the time of the crime
and was unable to conform his conduct to the requirements of
the law. Knight's history, Strauss testified, “[c]ombine[d] ...
with this undercurrent of a basic pathology of a paranoia
disorder,” meant that “his ability to really understand and
truly project out ramifications of his behavior is very limited.”
Like Lafehr-Hession, though, Strauss also acknowledged
aggravating factors. While insisting that Knight was not a
cold, calculated killer, Strauss agreed that Knight had the
ability to plan a crime and to conceal misdeeds.
After hearing from Knight's family and mental-health experts,
the trial court sentenced him to death. Florida v. Knight,
No. 97-5175 (Fla. Palm Beach County Ct. May 29, 1998)
(Sentencing Order). At the time, before a Florida court could
impose a death sentence, it had to conclude in a written order
that “there [were] insufficient mitigating circumstances to
outweigh the aggravating circumstances.”
Fla. Stat. Ann.
§ 921.141(3)(b) (1996). The court had to consider fourteen
enumerated aggravating factors and seven mitigating factors,
as well as “any other factors in the defendant's background
that would mitigate against imposition of the death penalty.”
Fla. Stat. Ann. § 921.141(6)(h) (1996).
In its sentencing order, the court found two statutory
mitigating factors and gave weight to several non-statutory
factors under
§ 921.141(6)(h)’s catchall. From among
the enumerated factors, the court found that the killing was
committed while Knight was under the influence of extreme
mental or emotional disturbance,
§ 921.141(6)(b), and
that Knight's capacity to appreciate the criminality of his
conduct or to conform his conduct to the requirements of
law was “somewhat” impaired,
§ 921.141(6)(f). 1 Among
non-statutory factors, *1041 the court gave some weight
to his troubled childhood as well as the facts that he had
the love and support of his family and that death would be
a disparate punishment compared to the lighter sentences
imposed on his coconspirators. In addition, although the court
didn't list Knight's paranoia disorder as a stand-alone factor,
it gave substantial mitigating weight to that consideration
in its treatment of the mental-or-emotional-disturbance and
impairment factors.
On the other side of the ledger, the court found four
aggravating factors under
§ 921.141(5)— (1) that
Knight had previously been convicted of killing Meehan; (2)
that the Kunkel murder was committed during the course of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

a robbery; (3) that it was committed for pecuniary gain; and
(4) that it was cold, calculated, and premeditated. (The court
merged the robbery and pecuniary-gain considerations and
therefore gave weight to only three aggravating factors.) Of
those, the last was perhaps the most damning. With respect
to that factor, the sentencing court observed in its written
order: “The defendant chose the ruse to lure the victim, chose
the victim, chose the time and place of the shooting and the
manner of death for Richard Kunkel. The execution-style
slaying of Kunkel by the defendant was carried out in a cold,
calculated and premeditated manner. There was no possible
claim of justification or excuse for the defendant's actions.”
Knight, No. 97-5175 (Sentencing Order).
Considering all of the evidence, the court concluded that “the
aggravating circumstances far outweigh[ed] the mitigating
circumstances and tilt[ed] the scales of justice decidedly
toward death.” Id. The court therefore sentenced Knight to die
for his crime. On direct appeal, the Florida Supreme Court
unanimously affirmed.
Knight, 770 So. 2d at 665. The
United States Supreme Court subsequently denied Knight's
petition for certiorari. Knight v. Florida, 532 U.S. 1011, 121
S.Ct. 1743, 149 L.Ed.2d 666 (2001).

B
After his direct appeals were rejected, Knight commenced
state postconviction proceedings. Although only one of the
claims raised there has survived, Knight initially raised
twenty-one, and the state postconviction court granted him an
evidentiary hearing on most of them. See Knight, 211 So. 3d at
7 (reviewing procedural history). Our ineffective-assistanceof-counsel inquiry centers on the evidence presented at that
hearing, which the court held in 2012.

1
During the postconviction hearing, Knight presented his
sister Theresa Scott Fowler and Dr. Abbey Strauss, both of
whom had also testified at sentencing, as well as several
additional lay and expert witnesses. The lay witnesses
testified concerning Knight's background and upbringing—
in addition to Fowler, they included Knight's codefendants
Dain Brennalt and Timothy Pearson, as well as a counselor
at the Eckerd Youth Center named Zebedee Fennell. Knight
also presented an affidavit signed by a man named Keith

Williams who claimed to have attended Eckerd with a boy
named Ronald Knight.
The Eckerd Youth Center featured prominently in both
Pearson's testimony and the Williams affidavit. Pearson,
*1042 Knight's closest childhood friend, didn't attend
Eckerd but claimed that it had a reputation as a “gladiator
school,” full of fights: “[I]t was the one place in Florida as
a juvenile you did not want to get sent.” Williams's affidavit
alleged that a boy named Ronald Knight had been physically
and sexually abused at Eckerd, suffering weekly rapes and
beatings from fellow students. Pearson testified that after
Knight returned home, they discussed the fights at Eckerd,
but he said that Knight didn't mention (and wouldn't have
mentioned) any sexual abuse.
Zebedee Fennell, a counselor and later a program
administrator at Eckerd, testified that although he recalled
an African-American boy at Eckerd named Ronald Knight,
he didn't know the defendant, who is white. Accordingly, he
said, he could testify only to the general conditions at Eckerd,
which he acknowledged included some violence.
Pearson also testified about Knight's drug use. He said that he
and Knight started smoking marijuana at around age nine, and
that by the time they were teenagers they were smoking daily,
drinking regularly, and experimenting with cocaine, acid, and
mushrooms. Eventually, he said, they started heavily abusing
drugs, including crack and powder cocaine.
Dain Brennalt echoed much of Pearson's drug-related
testimony. He said that he first met Knight and Pearson
as a customer, buying marijuana from them. Eventually, he
testified, the three began smoking together daily and using
powder cocaine weekly. Brennalt recalled that Knight was
“a lot more relaxed when he was on cocaine.” Brennalt
maintained, however, that although they had used cocaine in
the days leading up to the Kunkel murder, Knight had not used
any on the day of the killing. 2
Finally—among the lay witnesses—Knight presented (again)
his sister, Theresa Scott Fowler. In her postconviction
testimony, she explained that there was more extensive
childhood neglect than she had described at sentencing.
She discussed Knight's relationship with his parents—in
particular his father, who couldn't handle him and sent him
back to live with his single mother, where he encountered
a succession of boyfriends and stepfathers. Fowler said that
one of those boyfriends wouldn't allow Knight to live with

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

them, so Knight lived with friends and in treehouses in the
woods for a time. She also testified to indications of possible
abuse—one boyfriend, she said, was “very touchy-feely with
[her],” and another displayed “inappropriate behavior” with
her sister. She concluded, in sum, that their childhood had “no
love, there was no respect, there was no parenting skills at all.”
Knight also presented three expert witnesses at
the postconviction hearing. Dr. Jonathan Lipman, a
neuropharmacologist, testified—in summary—that Knight
must have been under the influence of drugs at the time of
the murder. He testified about Knight's history of drug abuse,
its extent, and its possible effects. Lipman explained that
in preparation for his testimony he met with Knight twice,
reviewed documents, and interviewed witnesses. He noted
the importance of third-party witnesses in assessing drug use,
given the tendency *1043 of users to underestimate their
own use and symptoms.
In light of the extensive drug-use described in Pearson and
Brennalt's testimony, Lipman concluded that that Knight must
have been “profoundly under the influence of cocaine plus
alcohol at the time of the offense and leading up to it.” He
testified, in particular, that the murder was the culmination
of a four-day cocaine binge. Lipman also believed that the
effects of Knight's paranoia combined with his drug use to
produce “a nexus where these two things come together that
causes an amplification.” Paranoid people, he said “are much
more vulnerable than [the] rest of us to experiencing the
adverse psychotoxic effects of cocaine.” He concluded that
Knight likely suffered illusions, hallucinations, and delusions
while using drugs. In Lipman's opinion, there was far more
extensive drug use than the evidence at sentencing revealed.
All of this led Lipman to agree with the sentencing court
that Knight was severely disturbed at the time of the murder
and unable to conform his conduct to the requirements of the
law. Lipman believed, however, the sentencing court lacked
a full understanding of the extent of these factors. According
to Lipman, “cocaine plus alcohol rather massively increases
impulsivity.” Because Lipman is not a psychiatrist and was
hired only to assess Knight's drug use, he didn't offer a
psychiatric diagnosis of Knight.
Dr. Phillip Harvey testified about “a series of cognitive tests”
that he had conducted on Knight, “looking at intellectual
functioning, screening for psychological impairment, testing
reading ability, and measuring his processing speed.”
Harvey explained his view that “all these different
tests ... and subscales” demonstrated “remarkably consistent

performance, at pretty much the median of the overall
distribution of intelligence.” According to Harvey, the tests
showed that Knight was “clearly in the average range of
performance.” As a result, he said, the “tests [didn't] reflect
any evidence of any decline in functioning from a higher/
better level, like you might see if someone had had a
significant traumatic brain injury, or an adverse impact of
substance abuse.” In fact, Harvey expressed surprise at the
lack of impairment, given Lipman's testimony opining on
Knight's extensive history of drug abuse. Ultimately, like
Lipman, Harvey didn't offer any specific diagnosis of Knight.
When pressed to discuss possible PTSD, for example, Harvey
noted that Knight had denied any history of trauma or sexual
abuse, which in Harvey's opinion foreclosed the possibility
of PTSD. Furthermore, Harvey testified that he had not been
hired to formally diagnose Knight.
Finally, Dr. Abbey Strauss testified once again, explaining
both his psychiatric diagnosis of Knight as well as his
preparation for the 1998 sentencing hearing. In terms of
preparation, Strauss reiterated that he had been involved in
the Meehan trial and was therefore familiar with Knight long
before Sosa contacted him about the Kunkel trial. He said
that his investigation was never rushed and that he was never
denied any time or resources by Sosa or the court. In the same
vein, he confirmed that his presentation to the sentencing
court was not “truncated” in any way. On the contrary, Strauss
emphasized his recollection that the sentencing judge “was
very hungry for as much information as he could get.” In
fact, the only difficulty that Strauss could recall resulted from
Knight's own non-cooperation during evaluations.
Strauss testified that in preparation for the postconviction
hearing, he reviewed the 1998 trial record, Knight's new
witnesses’ testimony, and the Williams affidavit. None of
it, he said, altered his original paranoia diagnosis. Strauss
testified, for *1044 instance, that while the Williams
affidavit “may have confirmed some of [his] suspicions about
the etiology of [Knight's] conditions,” it did not result in
any change to his expert opinion. In addition, he said that
“the reaffirmation of [his] diagnostic notion was reinforced
by speaking to Dr. Lipman and [Dr.] Harvey,” Knight's new
postconviction experts. In sum, Strauss explained that the
postconviction evidence was consistent with and confirmed
his original paranoia diagnosis—he agreed that his “global
opinions” were “really identical to what [he] expressed ... at
the penalty phase of this case.” The same was true of the
mitigating factors—in Strauss's opinion, due to his paranoia,
Knight had an impaired ability to conform his conduct to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

the law and was emotionally disturbed, both factors that the
sentencing court had given mitigating weight.

2
After the multi-day hearing, the state postconviction court
issued its ruling denying all of Knight's claims—including, as
relevant here, his ineffective-assistance-of-counsel claim.
Significantly for our purposes, the postconviction court made
several credibility determinations. See Consalvo v. Sec'y
for Dept. of Corr., 664 F.3d 842, 845 (11th Cir. 2011)
(“Determining the credibility of witnesses is the province and
function of the state courts, not a federal court engaging in
habeas review.”). First, the court “f[ound] Pearson's testimony
to lack credibility and credit[ed] the testimony of Brennalt,”
who “was emphatic that they did not use drugs on the day of
the homicide, though they had in the days leading up to it.”
Second, the court “d[id] not find Dr. Lipman's testimony to
be credible.” “Not only,” the court found, “were Dr. Lipman's
assertions based upon the testimony of another non-credible
witness”—meaning Pearson—but Lipman's expertise and
methods were lacking. In particular, Lipman “admit[ted] that
there was no toxicological evidence of [Knight's] drug abuse
and that any information related to the abuse came solely from
reports of people.” And, the court observed that “[d]uring
the hearing, [Knight himself] objected to the use of any
information used by Dr. Lipman because he did not complete
his evaluation of [Knight] nor did [Knight] believe he could
‘offer anything relevant to [his] claim.’ ” Third, and finally,
the court “gave little to no weight to” Fennell's testimony,
which “was solely related to the conditions at Eckerd at the
time [Knight] may or may not have been present.”

assistance-of-counsel claim, the court correctly framed the
two-part
Strickland analysis—which it labeled “deficient
performance and prejudice”—and proceeded to analyze the
postconviction witnesses’ testimony in connection with the
first, performance prong. Id. at 8–10.
The state supreme court began by noting that it would be
“highly deferential to the postconviction court on issues
of credibility” and would defer to “factual findings where
supported by competent, substantial *1045 evidence.” Id. at
8–9. The court therefore deferred to the postconviction court's
finding that Lipman and Pearson were not credible and agreed
that Fennell's testimony should be given “little to no weight.”
Id. at 10.
Considering the remainder of the postconviction evidence,
the court held that “Knight ha[d] not demonstrated deficient
performance as to any aspect of [the] ineffectiveness
claim” and, therefore, was “not entitled to relief.” Id. at
10. With respect to the experts, the court concluded that
“[p]ostconviction counsel's ability to find additional experts
who, [he] argue[d], provide[d] more favorable testimony d[id]
not make penalty phase counsel's performance deficient.” Id.
at 9 (citing Dufour v. State, 905 So. 2d 42, 58 (Fla. 2005)). The
court did not specifically analyze each lay witness but, after
dismissing Pearson and Fennell, concluded that the remaining
testimony failed to establish deficient performance. Id. at
10. Although Fowler's postconviction testimony, for example,
presented Knight's difficult childhood in greater detail than
she had at sentencing, the state supreme court agreed with
the postconviction court that “counsel cannot be deemed
ineffective for failing to present mitigation that only became
available after a family member had time to reflect on her
original testimony.” Id.

The state postconviction court ultimately held that Knight
“ha[d] no basis to assert a change in the outcome of the
penalty phase or change in which aggravators were used when
all that was presented was a reiterated diagnosis and new
experts, one of which submitted a non-clinical observation not
supported by objective data.” Accordingly, it denied Knight's
ineffective-assistance claim.

The court did not analyze
Strickland’s prejudice prong.
Given that “Knight ha[d] not demonstrated deficient
performance as to any aspect of this ineffectiveness claim,”
the court held that “he [was] not entitled to relief”
and therefore, that “[a] discussion of prejudice [was]
unnecessary.” Id.

C

III

Knight appealed six of his postconviction claims to the
Florida Supreme Court, which affirmed the trial court's denial.
Knight, 211 So. 3d at 19. Concerning Knight's ineffective-

Having exhausted his avenues for relief in state court, Knight
filed a federal habeas corpus petition under
28 U.S.C. §
2254. The district court denied all claims and, separately,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

denied Knight a certificate of appealability. We then granted
Knight a certificate of appealability with regard to one claim
—the ineffective-assistance-of-counsel claim now before us.

390, 125 S.Ct. 2456, 162 L.Ed.2d 360 (2005) (“Because the
state courts found the representation adequate, they never
reached the issue of prejudice, and so we examine this element

A

of the
Strickland claim de novo.” (citation omitted)).
Any analysis of deficiency—which the Florida Supreme
Court expressly addressed—of course remains subject to the
“doubly deferential” standard. 3

[3]
[4]
Strickland requires an ineffective-assistance
claimant “to show both that his counsel provided deficient
assistance and that there was prejudice as a result,” and
B
in considering the claim, the reviewing court is charged
with evaluating the lawyer's performance through a “most
We think it simplest and most straightforward to start, in
deferential” lens.
Harrington v. Richter, 562 U.S. 86,
104, 105, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011) (“Unlike
a later reviewing court, the attorney observed the relevant
proceedings, knew of materials outside the record, and
interacted with the client, with opposing counsel, and
with the judge.”). Under
§ 2254(d), this
Stricklandbased deference concerning a lawyer's performance is
“doubl[ed]”—compounded.
Id. at 105, 131 S.Ct. 770
(quotation omitted). “A state court's determination that a
claim lacks merit precludes federal habeas relief so long as
‘fairminded jurists could disagree’ on the correctness of the
state court's decision.”

Id. at 101, 131 S.Ct. 770 (quoting

Yarborough v. Alvarado, 541 U.S. 652, 664, 124 S.Ct.
2140, 158 L.Ed.2d 938 (2004)). “The question,” therefore,
“is whether there is any reasonable argument that counsel
satisfied
Strickland’s deferential standard.”
131 S.Ct. 770.

Id. at 105,

[5] Things are a little bit different here because the Florida
Supreme Court expressly declined to analyze
Strickland’s
second prong, prejudice. Knight, 211 So. 3d at 10.
Although some portions of that court's opinion might be
understood as a mixed assessment of both prongs—at times
suggesting, perhaps, that Sosa's performance wasn't deficient
because Knight *1046 hadn't demonstrated prejudice—
we will take the Florida Supreme Court's decision—and
its statement that because “Knight ha[d] not demonstrated
deficient performance ... [a] discussion of prejudice [was]
unnecessary”—at face value. Id. Accordingly, “our review is
not circumscribed by a state court conclusion with respect
to prejudice,”
Wiggins v. Smith, 539 U.S. 510, 534, 123
S.Ct. 2527, 156 L.Ed.2d 471 (2003), and we must review
that prong de novo. See

Rompilla v. Beard, 545 U.S. 374,

this case, from the other end of the
Strickland standard.
For purposes of our analysis, we will simply assume
(without deciding) that Sosa's “representation fell below an
objective standard of reasonableness” sufficient to establish
deficient performance,

Porter, 558 U.S. at 38, 130 S.Ct.

447 (quoting
Strickland, 466 U.S. at 688, 104 S.Ct.
2052), and focus our assessment on the prejudice prong.
See
Strickland, 466 U.S. at 697, 104 S.Ct. 2052 (“If
it is easier to dispose of an ineffectiveness claim on the
ground of lack of sufficient prejudice, which we expect will
often be so, that course should be followed.”). For reasons
we will explain, we conclude that even under a de novo
standard, Knight has failed to meet his burden to “show
that there is a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have
been different.”
(quoting

Porter, 558 U.S. at 38–39, 130 S.Ct. 447

Strickland, 466 U.S. at 694, 104 S.Ct. 2052).

[6] In evaluating prejudice, our task is to review the new
evidence presented by Knight and then “reweigh the evidence
in aggravation against the totality of available mitigating
evidence.”

Cullen v. Pinholster, 563 U.S. 170, 198, 131

S.Ct. 1388, 179 L.Ed.2d 557 (2011) (quoting
Wiggins,
539 U.S. at 534, 123 S.Ct. 2527). “[T]he question is whether
there is a reasonable probability that, absent the errors,
the sentencer ... would have concluded that the balance of
aggravating and mitigating circumstances did not warrant
death.”
Id. (ellipses in original) (quoting
466 U.S. at 695, 104 S.Ct. 2052).

Strickland,

[7] After carefully comparing the evidence presented at
Knight's sentencing to that adduced on postconviction
review, we conclude that the state trial court did not

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

*1047 err when it concluded at sentencing that the
aggravating circumstances “far outweigh the mitigating
circumstances.” Knight, No. 97-5175 (Sentencing Order).
Knight's postconviction evidence confirms the mitigation
evidence that Sosa originally presented, but it does not
support any new mitigating factors. At the same time, the
aggravating factors found by the sentencing court remain
unchallenged and unaltered. As we will explain, therefore, the
overall balance remains essentially unchanged, meaning that
there is no “reasonable probability” that the sentencing court
would have opted for life, rather than death.
U.S. at 38–39, 130 S.Ct. 447 (quoting
at 694, 104 S.Ct. 2052).

Porter, 558

Strickland, 466 U.S.

1
We will first examine the mitigation side of the ledger. None
of Knight's postconviction evidence establishes any new
mitigating factors. Recall that the sentencing court found two
statutory mitigating factors—(1) that Knight was under the
influence of extreme mental or emotional disturbance and (2)
that his capacity to appreciate the criminality of his conduct
or conform it to the requirements of the law was impaired. It
also gave weight to several non-statutory mitigating factors—
among them Knight's troubled childhood, that he had the love
and support of his family, and that a death sentence would
be disparate compared to the lighter sentences given to his
coconspirators.
Knight initially argues that his postconviction evidence
establishes a greater drug dependency than the sentencing
evidence revealed and possible childhood sexual abuse
of which the sentencing court was unaware. We are not
convinced. Knight's contentions are neither well supported
nor particularly revelatory.
[8] The drug-related argument rests on a shaky foundation—
namely, on the testimony of Pearson, Brennalt, and Lipman.
Like the Florida Supreme Court, we must defer to the state
postconviction court's credibility determinations. See Knight,
211 So.3d at 9–10; Consalvo, 664 F.3d at 845 (“Federal
habeas courts have no license to redetermine credibility
of witnesses whose demeanor has been observed by the
state trial court, but not by them.” (quotation omitted)). 4
Because those determinations are supported by competent
and substantial evidence, we defer to the state courts’

decisions to accord Pearson and Lipman's testimony little, if
any, weight.
The remaining drug-related testimony adds little. Brennalt
testified that he met Knight through drug dealing and that they
often used cocaine and marijuana together. The sentencing
court, however, was well aware of Knight's drug abuse.
Knight's mother, Gerheiser, testified that he began using drugs
soon after his father left and that he was even sent to rehab as
a teenager. While Brennalt's testimony may fill in some of the
details of Knight's drug use, it doesn't add anything truly new.
More importantly, while Lipman's expert testimony focused
on the effects of Knight's cocaine use, Brennalt was insistent
that Knight had not used cocaine on the day of Kunkel's
murder.
The alleged abuse at Eckerd—while more explosive and, if
true, tragic—is not particularly well-supported, either. The
lone evidence of it is in the form of an unauthenticated
affidavit from a one-time student at Eckerd, Keith Williams,
who alleged that a boy named Ronald Knight *1048
suffered horrific abuse while there. Williams's affidavit,
though, doesn't provide any real details about the “Ronald
Knight” that it describes—e.g., race, hair or eye color, years
of attendance, etc.—and we thus have no firm indication
that the individual named there is in fact the defendant.
The uncertainty is compounded by the testimony of Zebedee
Fennell, an Eckerd administrator, who stated that although
there was an African-American boy named Ronald Knight
at the school, he didn't recall the defendant, who is white.
Moreover, the postconviction court excluded the Williams
affidavit on hearsay grounds, and in evaluations with his
experts, Knight himself denied that he had suffered any
traumatic abuse.
Even if we were to accept the Williams affidavit as true for
the purposes of our analysis, it is, as Dr. Strauss testified
on postconviction, merely “consistent with some of the
suspicions that [experts] had [in 1998] about what happened
to Mr. Knight when he was a teenager.” Those “suspicions”
were aired at sentencing. Mental-health counselor Susan
Lafehr-Hession testified that Knight's mental duress “likely
had to do with ... whatever happened at [Eckerd] that ended up
in having his testicle amputated.” Knight's mother Gerheiser
had also discussed his injury with the sentencing court,
though she blamed it on an accident. Even after reading
Williams's affidavit, Strauss was adamant that while it offered
an explanation “about the etiology of [Knight's] conditions,”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

it did not “suggest that anything ha[d] changed” in his
diagnosis.

on the defendant's criminal behavior in this case.” Id. Fowler's
postconviction testimony adds little on that score.

Strauss's testimony regarding the alleged abuse—that it
strengthened and confirmed his earlier conclusion but didn't
fundamentally change anything—is consistent with the
balance of his postconviction testimony. After hearing from
the new witnesses, reading the new experts’ reports, and
reviewing all other available evidence, Strauss agreed that
his “global opinions [were] really identical to what [he]
expressed to Judge Garrison in 1998, at the penalty phase of
the case.” His diagnosis remained unaltered—Knight, he said,
suffered from an “undercurrent of a paranoid disorder” that
involved an inability to trust others and supported findings
that Knight was under extreme mental or emotional distress at
the time of the murder and was unable to conform his conduct
to the law. That is exactly what the sentencing court found in
1998.

***

The remainder of the postconviction witnesses likewise
offered nothing in the way of mitigation that was
fundamentally new or particularly revelatory. Dr. Phillip
Harvey, who administered a series of cognitive tests to
Knight, simply found that Knight was in the average range
of intelligence and ability. Knight can hardly be said to have
been prejudiced by Sosa's failure to include such test results
at sentencing.
So too with respect to Knight's sister, Theresa Scott Fowler.
Fowler, the only witness other than Strauss to appear at both
the sentencing and postconviction hearings, stated during
the latter that there was more extensive childhood neglect
than she had previously described. For example, whereas she
testified at sentencing that their mother Karen Gerheiser did
the best that she could as a single parent and that despite
some neglect there was never any abuse, at the postconviction
hearing her opinion of Gerheiser had soured considerably—
there was “no love,” “no respect,” and “no parenting skills
at all.” As she did at sentencing, she discussed the revolving
door of stepfathers and boyfriends but offered more detail
—some of them may have abused Fowler and her sister,
and one refused to let an adolescent Knight live with them.
Fowler's postconviction testimony adds detail and *1049
texture, but nothing fundamentally new. The sentencing court
had more than enough mitigating evidence before it to find
that Knight “came from a broken home and had a less than
ideal childhood.” Knight, No. 97-5175 (Sentencing Order).
What the sentencing court found dispositive, however, was
the lack of “evidence or testimony that this had any bearing

At the end of this exhaustive review of Knight's
postconviction evidence, we are left with the same mitigating
factors that the sentencing court credited. First, we have
the statutory factors—that Knight suffered from extreme
mental or emotional distress and an impaired ability to
conform his conduct to the requirements of the law, both
connected to his paranoia. Second, we have the “other
factors in the defendant's background that would mitigate
against imposition of the death penalty,”
Fla. Stat.
Ann. § 921.141(6)(h) (1996)—among them (1) that Knight
had a troubled childhood, which began with his father's
abandonment, featured a rotation of father-figures of dubious
repute, and culminated in failed remedial youth programs; (2)
that despite this past, he had the love and support of his family;
and (3) that a death sentence would be disparate compared
to Knight's coconspirators Brennalt and Pearson, who both
received only short sentences for their parts in Kunkel's
murder. The only impact that the postconviction evidence can
fairly be said to have is in filling out the details pertaining
to these same, preexisting factors. See
Cullen, 563 U.S. at
200–01, 131 S.Ct. 1388 (noting that, because “[petitioner's]
‘new’ evidence largely duplicated the mitigation evidence
at trial,” and “basically substantiate[d] the testimony of” his
family, there was “no reasonable probability that [it] would
have changed the jury's verdict”).
Knight's failure to adduce significant new mitigating evidence
stands in contrast to cases in which courts have concluded
that petitioners met their burden under the prejudice prong.
In
Rompilla v. Beard, for example, the petitioner's
postconviction evidence established, for the first time, that
he suffered from mental retardation due to organic brain
damage (and probably fetal alcohol syndrome, as well),
a substantially impaired ability to appreciate criminality
and conform conduct to the law, alcoholism, and possible
schizophrenia.
545 U.S. at 391–93, 125 S.Ct. 2456.
In those circumstances, it went “without saying that the
undiscovered mitigating evidence, taken as a whole, might
well have influenced the jury's appraisal of [the defendant's]
culpability, and the likelihood of a different result if the
evidence had gone in is sufficient to undermine confidence
in the outcome actually reached at sentencing.”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Id. at 393,

11

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

125 S.Ct. 2456 (quotations omitted); see also
Porter, 558
U.S. at 33, 130 S.Ct. 447 (“Unlike the evidence presented
during Porter's penalty hearing, which left the jury knowing
hardly anything about him other than the facts of his crimes,
the new evidence described his abusive childhood, his heroic
military service and the trauma he suffered because of it, his
long-term substance abuse, and his impaired mental health
and mental capacity.”).
By contrast, Knight's “new” mitigation evidence
merely strengthens—corroborates, confirms—the mitigating
circumstances that Sosa presented at sentencing. The credible
postconviction testimony is largely duplicative of the
sentencing-phase evidence, and establishes no new mitigating
factors.

Florida Supreme Court had eliminated the aggravating factor
that the defendant's crime was especially “heinous, atrocious,
or cruel,” finding it unsupported by the evidence.

Porter

v. State, 564 So. 2d 1060, 1063 (Fla. 1990); see
Fla. Stat.
Ann. § 921.141(5)(h) (1996). Accordingly, in its analysis of
prejudice the United States Supreme Court concluded that the
new mitigating factors established by Porter's postconviction
evidence, combined with the “reduced [ ] ballast on the
aggravating side,” demonstrated “a reasonable probability
that the advisory jury—and the sentencing judge—would
have struck a different balance.”
Porter, 558 U.S. at 42,
130 S.Ct. 447 (quotation omitted). Here, by contrast, the
aggravating factors that underlay Knight's death sentence
remain unchallenged and unchanged.
***

2
Knight's failure to bring forward any truly new mitigating
evidence is stacked *1050 against the aggravating factors
that the sentencing court found, all of which remain
unchallenged. First, Knight “was previously convicted of
another capital felony” for the murder of Brendan Meehan.
Fla. Stat. Ann. § 921.141(5)(b) (1996). Second and
third, he murdered Kunkel while in the commission of a
robbery,
§ 921.141(5)(d), and “for pecuniary gain,”
§
921.141(5)(f). And fourth, the execution-style murder “was
committed in a cold, calculated, and premeditated manner
without any pretense of moral or legal justification.”
§
921.141(5)(i). What the sentencing court said in 1998 remains
true today: “The defendant chose the ruse to lure the victim,
chose the victim, chose the time and place of the shooting
and the manner of death for Richard Kunkel.... There was no
possible claim of justification or excuse for the defendant's
actions.” Knight, No. 97-5175 (Sentencing Order). Not only
did these factors “far outweigh” the mitigating evidence, but
any one of them “standing alone, would outweigh the minimal
mitigating evidence in this case.” Id.
In this respect, this case is critically different from
Porter,
on which Knight heavily relies. There, during its review, the

Unlike the petitioners in the cases on which he relies, Knight's
postconviction hearing evinced no new mitigating factors,
and he does not challenge any aggravating factor. Even if we
believed Sosa's performance to be deficient, Knight has failed
to carry his burden to establish a “reasonable probability that,
absent the errors, the sentencer ... would have concluded
that the balance of aggravating and mitigating circumstances
did not warrant death.”
Strickland, 466 U.S. at 695, 104
S.Ct. 2052. Because he has failed to establish prejudice, his
ineffective-assistance-of-counsel claim fails.

IV
Because we conclude that Knight has failed to prove the
prejudice component of his ineffective-assistance-of-counsel
claim, we affirm the district court's denial of his
habeas petition.

§ 2254

AFFIRMED.
All Citations
958 F.3d 1035, 28 Fla. L. Weekly Fed. C 1074

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Knight v. Florida Department of Corrections, 958 F.3d 1035 (2020)
28 Fla. L. Weekly Fed. C 1074

Footnotes
1

2

3

Although
Fla. Stat. Ann. § 921.141(6)(f) (1996) required a judge to find that the defendant's capacity
to appreciate criminality and conform conduct was “substantially” impaired, the sentencing court here
“was unable to find that [Knight's] capacity was substantially impaired based upon the experts’ testimony,”
as “each concluded that he could distinguish right from wrong.” Nonetheless, the court “g[ave] some
[mitigating] consideration to the fact that [Knight's] capacity was somewhat impaired.” See Knight, No.
97-5175 (Sentencing Order) (emphasis in original).
Brennalt gave ambiguous testimony regarding whether Knight used marijuana on the day of Kunkel's murder.
When asked whether he smoked marijuana on that day or observed Knight or Pearson doing so, he
responded, “Yes, I did.” Brennalt's answer could mean either that he smoked marijuana—implying that the
others did not—or, by contrast, that he saw the others smoking. In any event, Brennalt testified clearly that
Knight had not used any cocaine on the day of the murder.
To be clear, this case provides us no occasion to “look through” the Florida Supreme Court's decision and
defer to the state trial court's prejudice determination under

Wilson v. Sellers, ––– U.S. ––––, 138 S.

Ct. 1188, 1196, 200 L.Ed.2d 530 (2018).
Wilson addressed the question how a federal habeas court
should deal with the circumstance in which a state supreme court's decision “does not come accompanied
by reasons”—where, for instance, it consists in only “a one-word order.”
Id. at 1192. Here, by contrast, we
are confronted with a reasoned opinion from the Florida Supreme Court that addresses Knight's ineffectiveassistance claim on the merits. We take the Florida Supreme Court's decision just as we find it—and under
Wiggins and

Rompilla, because that court declined to address

consider that issue de novo. See also

4

Strickland’s prejudice prong, we must

Johnson v. Secretary, 643 F.3d 907, 930 & n.9 (11th Cir. 2011)

(likewise explaining that where a state supreme court's decision addresses only one of
Strickland’s two
prongs, a federal habeas court must consider the unaddressed prong de novo).
To be clear, that is so even under a de novo standard. See Consalvo, 664 F.3d at 845 (“We consider questions
about the credibility and demeanor of a witness to be questions of fact.”).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

